                                  Closeout for M90070028


    OIG learned that a qui tam lawsuit had been initiated by the complainant' against the
university,2 the ~ u b j e c t ,and
                                 ~ various university administrators on July 26, 1990.
Previously, the complainant and subject had been collaborators. After the collaboration
ended, the complainant aCeged that the subject had made misrepresentations, committed
plagiarism (verbatim and intellectual theft), and attempted to obtain duplicative funding in
NIH and NSF prop osals.4 Specdically, the complainant made allegations that the subject:
    1. denied authorshp to co-workers by failmg to include their names on a conference
       abstract;
    2. submitted proposals to NIH and NSF that contained misrepresentations;
    3. sought duplicate funding because she did not acknowledge the complainant's NIH
       grant as a source of funds that was supporting the same work as the subject was
       proposing;
   4. committed plagiarism and intellectual theft by incorporating his methodologies and
      their joint research into her proposals; and
   5. lied about the size and ownership of an animal colony in her proposals to NIH and'
      NSF and mistreated the animals.

   The complainant also alleged that the administrators at their university who were
informed of the allegations:
   6. attempted to cover up the subject's misrepresentations; and
   7. retaliated against him because he made his charges against the subject public.
           1




    OIG learned that the complainant and the subject, in the early 80s, had agreed to
collaborate on a project and to jointly pubhsh their research results. A couple years later,
the subject decided not to continue the collaboration with the complainant and began to
submit proposals without bun as a co-PI. Following the complainant's denial of tenure, he
claimed that the subject's submission of proposals without including him as a co-PI had
diminished ~ L Schance at promotion and tenure. The complainant requested, and was
granted by the university, a n appeal. A committee was convened to examine the




                                        Page 1 of 4
                                     Closeout for M90070028


    complainant's tenure process and to investigate his allegations against the subject. The
    university committee found no evidence to support the complainant's allegations that he
    was unfairly denied tenure because of the subject's actions. The committee found no
    evidence to support the allegations of plagiarism or misrepresentation.
        The subject subsequently filed a lawsuit against the university, various administrators,
    and the subject, for wrongful denial of tenure and termination. Several years later, after a
    deadlocked jury, the lawsuit was settled out of court; the complainant received a monetary
    payment and the suit against the defendants was dismissed with prejudice. Furthermore,
    the defendants admitted no wrongdoing involving the allegations listed above and
    discussed below. Several months after the civil suit settlement, the complaint brought his
    allegations to the attention of the NSFs Office of Audit and Oversight (OAO). Because NIH
    had provided most of the subject's funding, OAO deferred to it. Two years later, the
    complainant fled a p.ui tam lawsuit. We conducted an inquiry to evaluate the evidence
    adduced by the complainant to determine whether there was substance to the allegations of
    misconduct in science.


    1. Authorship credit
        The complainant alleged that the subject failed to properly attribute the names of three
    scientists as co-authors on an abstract submitted to a conference. The complainant
    indicated that he confronted the subject about this and she agreed to add the names and
    resubmit the abstract. The subject's explanation was that the conference abstract described
    new research that was based on joint publications with the three scientists and that her
    talk a t the conference contained mostly new results. Nevertheless, she added the three
    names to the abstract and resubmitted it. OIG concluded that, since the names of the three
    scientists were added to the abstract, no one was deprived of authorship credit.


    2. Misrepresentations
        The complainant alleged that the subject misrepresented her NIH and NSF proposals
    as her own by omitting him as a co-PI. The complainant said these proposals relied on the
    use of his animal colony, and that as a result, he should have been a co-PI on these
    proposals because they used b colony. The established tradition in the area of the
    subject's research field is that animal colony ownership does not automatically guarantee
    that the owner of the colony should be a co-PI or co-author on the research done with that
    colony. OIG concurred with the university committee's conclusion that, because the subject
    cited the collaborative effort in her proposals, the subject did not misrepresent information
    in her proposals when she did not include the complainant as a co-PI.


'   3. Duplicate funding
       The complainant claimed that the subject defrauded the government by requesting
    money for work that (a) had already been performed or (b) was being performed under the
    complainant's grants. Regarding allegation (a), OIG learned that the subject's earlier NSF

                                             Page 2 of 4                                 M90-28
                                  Closeout for M90070028


awards were not intended to provide sufficient funds to complete the experiments, but were
designed to support only pilot studies to demonstrate the feasibility of the project. OIG
concluded that there was no evidence to support the allegation that the subject sought
duplicative funding for work she already performed.
    ~ e ~ i r dallegation
                in~       (b), the complainant stated that the subject did not disclose the
complainant's funding in the Current and Pending Support (CPS) section of her
proposals. According to section 203.5 of the Grant Policy Manual (NSF 88-47), the CPS
section (NSF Form 1239) requires "the Principal Investigator and other senior personnel
[researchers collaborating on the project including the co-PI(s)]" to identlfy "all current
research awards [also including "all proposed projects which are being considered by or
which will be submitted in the near future"] from all sources . . . to which time is
committed." The CPS form does not require that the PI list the research support for
scientists other than themselves and the complainant did not meet the requirements
requiring CPS disclosure. OIG concluded that the subject did not seek duplicative funding.



    The complainant alleged that the subject plagiarized, "almost verbatim," sections of a
manuscript that they jointly authored into her NSF and NIH proposals. Co-authors of a
joint paper in which their respective contributions are not distinct, are fiee to independently
use material &om their co-authored paper in their own subsequent work.
   The complainant alleged that the subject committed intellectual theft when she
incorporated his methodology into her proposals. The complainant alleged that four oral
suggestions he made to the subject during the course of their collaboration were
misappropriated by her. OIG determined that these suggestions were similar to the
content of collegial discussions and were representative of general knowledge in the field,
not unique to the complainant. Although the subject could have acknowledged them as
helpful suggestions, her use of these general ideas did not constitute intellectual theft. OIG
concluded that there was no substance to the allegation of plagiarism.


5. The animal colonv
    The complainant alleged that the subject misappropriated his animal colony and lied
about its size in her NSF and NIH applications. OIG found that although the complainant
had made some of his animals available to the subject for their initial collaboration, there
was no formal arrangement on how the animals Gom his colony would be shared. This lack
of a formal arrangement could have led to misunderstandings on how the animals should be
shared. Based on the lack of evidence to the contrary, OIG concluded that there was no
substance to the allegation that the subject misappropriated the complainant's animal
colony.
   With regard to the size of the colony, OIG learned that the subject had not accurately
reported this number in her NSF and NIH proposals. However, OIG was informed by a



                                         Page 3 of 4                                   M90-28
                                  Closeout for M90070028


program manage+ that the specific number of animals to be used was not crucial to the
successful completion of the proposed research. The subject had access to other animals
through commercial providers and could have added more if needed. OIG concluded that,
in this case, the subject's inaccurate representation of the exact number of animals in her
animal colony was not a substantive issue and, as such, would not be characterized as
misconduct in science.
   The complainant alleged that when he removed IS animaLs from the subject's lab, he
observed that 20% of the animals showed symptoms of malnkrition. OIG learned from the
Associate Dean6 that the Director of the Anunal Care Facihty7 said that he had watched
over the animals daily and had not reported that the animals were abused. OIG concluded
that there was no substance to the allegations that the animals were mistreated.


6. Administrative alle~ations
   The complainant argued that the administration did not fairly pursue his allegations
and, in the process, covered up the subject's actions. Including OIG's review, there have
been four independent assessments of the complainant's allegations. OIG concluded that
there was no evidence to support the allegation that the subject's actions were unfairly
protected from scrutiny.
    Although the internal decisions of the university to grant or deny tenure are not within
OIG's purview, the complainant alleged that the university's termination of his contract
was retahtion against him for whistle-blowing. OIG learned that the complainant h t
made his aforementioned allegations (#I-5) to the administration shortly after he was
denied tenure. Thus, OIG concluded that there was no evidence to support the allegation
that the complainant's termination from the university was because he made his
allegations public.
   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                         Page 4 of 4
